Consumer Credit Card Agreement – Visa® Platinum
Effective October 1, 2018
1.0: INTRODUCTORY PROVISIONS AND DISCLOSURES:
The following information on interest rates, interest charges, and fees are accurate as of 10/1/2018 and may have
changed after that date. To find out what may have changed, call us at 206-292-3900 or toll free at 1-800-998-4035.

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

APR for Cash Advances

•

14.04%
This APR is a fixed rate.

•

14.04%
This APR is a fixed rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance due by
the due date each month. We will begin charging interest on Cash Advances and
Quasi Cash transactions on the transaction date.

Minimum Interest Charge

No Minimum Interest Charge

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit
card, visit the Consumer Financial Protection Bureau’s website at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

$25

Transaction Fees:


Cash Advances

A fee equal to the greater of $3.00 or 2% of each advance will be imposed;
however, this charge will not exceed $50.00



International
Transactions

1% of the U.S. dollar amount of each transaction.

Penalty Fees:


Late Payment

$25



Returned Payment

$35

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases)”.
See your cardholder agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
cardholder agreement.

Zions Bancorporation, N.A. dba The Commerce Bank of Washington
Last Review Date: 20181001

Zions Bancorporation, N.A. Member FDIC

1.1: Zions Bancorporation, N.A. dba The Commerce Bank of Washington among other things,
issues credit cards to its customers. This is a credit card agreement and disclosure statement
("Agreement") between you and The Commerce Bank of Washington (“Bank”) containing the terms that
will apply to your consumer credit card account (“Account”) and replaces and supersedes any previous
Consumer Credit Card Agreement and Disclosure Statement (and amendments thereto).
1.2: DEFINITIONS AND PARTIES TO AGREEMENT: The following definitions apply and will
help you better understand this document: The word “Bank” means ZIONS BANCORPORATION,
N.A. dba The Commerce Bank of Washington. The words “Card Agreement” refers to this Agreement
together with the Card Application and the folder containing the Card. The word “Card” refers to the
one or more credit cards and the associated card number that the Bank has issued with the account
number for your Card Account, including any renewal or replacement cards. The words “Card
Account” refer to the Visa Platinum credit card account governed by the Card Agreement between you
and the Bank. The words “Card Application” refer to the credit application for the Card Account. The
words “Credit Card Checks” refer to the one or more checks that the Bank may provide to access your
Card Account. The words “Credit Limit” refer to the maximum available dollar amount of credit
authorized by the Bank. The words “Outstanding Balance” refer to the entire amount owing on your
Card Account at any given time. The words “you” and “your” refer to the one or more individuals
(including the primary applicant and any co-applicant) who have received credit from the Bank and who
are liable on the Card Account. The words “we” or “us” refer to The Commerce Bank of Washington.
1.3: AGREEMENT: This Agreement documents the agreement between you and the Bank regarding
your Card Account. This Agreement contains important information that you should review carefully
and keep in your records. This Agreement becomes effective on the earlier of (1) 15 days after the Bank
sends you the Card, or (2) your first use of the Card or Card Account. Any use of the credit associated
with your Card Account constitutes your acceptance of the terms of this Agreement. If you do not wish
to be bound by this Agreement, you must not use (or authorize anyone else to use) your Card or Card
Account and you must cancel your Card Account within 15 days after receiving the Card.
1.3.1: Integrated Agreement. You agree that the Card Agreement is a final written expression of the
Agreement between you and the Bank and that the Card Agreement may not be contradicted by evidence
of any alleged oral agreement.
1.3.2: Severability. The provisions of the Card Agreement are severable to the extent that any provision
hereof held to be prohibited or unenforceable in an applicable jurisdiction shall not invalidate the
remainder of the Card Agreement in that jurisdiction and shall be fully enforceable in any other
jurisdiction not expressly prohibiting such provision.
1.3.3: Delay in Enforcement. The Bank may exercise its rights under the Card Agreement immediately
or, at the Bank's sole discretion, may decline to enforce or delay in enforcing any such rights without
losing, waiving, or impairing them.
1.3.4: Assignment and Binding Effect. You may not sell, assign, or transfer the Card Agreement or
your Card Account or any portion thereof without the express prior written consent of the Bank. The
Bank may sell, assign, or transfer the Card Agreement or your Card Account or any portion thereof
without notice to you. Subject to the foregoing, the Card Agreement shall be binding upon the heirs,
representatives, successors, and assigns of the parties hereto.
1.4: AMENDMENT OF THIS AGREEMENT: The Bank may amend this Agreement by
changing, adding or deleting any term, condition, service or feature (“New Term”) of your
Account or of this Agreement at any time. The Bank will provide you with notice of the
amendment to the extent required by law. Unless we state otherwise, any New Term may apply
only to new activity on your account. If the amendment includes any change for which we need
your consent, we will obtain your consent before that New Term becomes effective. If we need to
do so, we may obtain your consent in any one or more of the following ways: (a) by your usage of
the Account after we give you notice of the amendment; (b) by your failure to write us on time if
we request that you write us to reject a New Term; or (c) by your affirmative agreement which
may be obtained verbally, in writing or electronically.
1.4.1: If you do not agree to the Amendment. You must notify the Bank in the manner provided with
the amendment within 25 days after the effective date of the change, and the Bank may close your Card
Account and may elect to have you pay the Outstanding Balance as provided by law. Otherwise, you
shall be deemed to have agreed to the change(s) in the Bank’s notice. Use of the Card after the effective
date of the change shall be deemed to be your acceptance of the new terms.
1.4.2: Any other term in the amendment will become effective without your consent, although you
may be able to avoid a fee or charge by not making the type of transaction to which it applies after
the effective date of the amendment.
1.5: CREDIT LIMIT: The Credit Limit on your Card Account is disclosed on each monthly statement
(your initial Credit Limit appears on the folder containing the Card). You agree not to use or allow
anyone else to use the Card or your Card Account in any way that would cause the Outstanding Balance
to exceed your Credit Limit. You are liable for the Outstanding Balance even if it exceeds your Credit
Limit. The Bank may increase or decrease your Credit Limit at any time and will notify you of such
change. In addition, you may request a change in your Credit Limit by writing to the address shown on
your monthly statement or by calling 206-292-4550 during business hours (8:00 a.m. to 5:00 p.m.
Pacific Time, Monday through Friday).
2.0: THE CARD:
2.1: Signature Panel. For your protection, the back of the Card contains a signature panel which should
be signed before the Card is used.
2.2: Card is Bank Property. The Card is the property of the Bank and must be returned to the Bank if
the Bank so requests. Also, the Bank can at any time and without cause and without notice, revoke the
right to use the Card. If a merchant or a financial institution where the Card is attempted to be used asks
for the surrender of the Card, it must be surrendered immediately.
2.3: Expiration. The Card will not be valid after the expiration date printed on the front of the Card and
it must not be used after that date.
2.4: Renewal and Replacement Cards. The Bank will continue to issue renewal or replacement Cards
until the Bank revokes the right to use the Card or until your Card Account is closed.
2.5: Additional Cards. You may request additional Cards at no additional cost for members of your
family or for others you authorize to use your Card Account. However, you are responsible for all
charges to your Card Account made by such persons.
3.0: AVAILABLE TRANSACTIONS: Subject to the restrictions described herein, the Card and your
Card Account may be used in any of the following transactions:
3.1: Purchases. The Card may be used to purchase or lease goods or services wherever the Card is
honored.
3.2: Cash Advances and Quasi Cash transactions. Subject to your available Credit Limit, the Card
may be used to obtain Cash Advances and Quasi Cash transactions (money orders, travelers cheques,
etc) from your Card Account (1) in person at the Bank or any participating financial institution or (2) at
any ATM in the Bank network or any of the other participating ATM networks (the names of which are
shown on the back of the Card), subject to the following limitation (certain ATMs may have other
limits): the total dollar amount of such ATM Cash Advances and Quasi Cash transactions plus all cash
withdrawal electronic fund transfers made during any calendar day (from midnight to midnight) may not
exceed $500 for each card issued with your Card Account number. Cash Advances and Quasi Cash

transactions may not exceed the lesser of your available credit or at our option $500 for any single
advance. Each Cash Advance and Quasi Cash transaction will create a charge to your Card Account.
3.3: Electronic Online Cash Advances and Quasi Cash transactions: Subject to your available Credit
Limit, the Card may be used to obtain electronic online Cash Advances and Quasi Cash transactions
from your Card Account. Based on risk, we reserve the right to limit electronic online Cash Advances
and Quasi Cash transactions access at the sole discretion of the Bank. Each electronic online Cash
Advance and Quasi Cash transaction will be treated as a Cash Advance and Quasi Cash transaction
subject to a Cash Advance and Quasi Cash Transaction Fee charged to your Card Account.
3.4: Internet Transactions: If your card is a Visa branded card, enrollment in the Verified by Visa
program is required after 3 Internet purchases. In order to make transactions over the Internet merchants
may request your Verified by Visa password to complete the transaction. If a password is not provided
the merchant may deny the transaction. If the password is incorrect we may deny the transaction. By
allowing another to use your Verified by Visa password you are authorizing the transaction on your
account.
3.5: Internet Gambling Notice: Restricted transactions as defined in Federal Reserve Regulation GG
are prohibited from being processed through this account or relationship. Restricted transactions
generally include, but are not limited to, those in which credit, electronic fund transfers, checks, or drafts
are knowingly accepted by gambling businesses in connection with the participation by others in
unlawful Internet gambling. We have elected to not offer accounts to organizations that offer or sponsor
Internet gambling. Commercial accounts receiving or processing Internet gambling transactions are
subject to closure.
4.0: MONTHLY STATEMENTS: The Bank will send you (or one of you) a monthly statement
summarizing each transaction on your Card Account during the preceding billing period. Your monthly
statement will show the total amount you owe as of the end of the billing period, including any finance
charges, fees, the minimum payment due and the payment due date, which date is at least 25 days from
the monthly statement closing date. It also shows your current Credit Limit. The Bank will mail or
deliver your monthly statement to only one address. Preservation of your rights under federal law
regarding resolution of billing errors depends upon your timely recognition of potential errors, as
explained in “Billing Rights Summary” notice at the end of this Agreement.
5.0: HOW THE NEW BALANCE IS DETERMINED: The total amount that you owe the Bank at the
end of the current billing period appears as the “New Balance” on the monthly statement. The
Outstanding Balance at the end of the previous billing period is called the “Previous Balance”. The New
Balance is determined by taking the Previous Balance and (1) subtracting any payments and credits
received by the Bank during the current billing period and then (2) adding any purchases, Cash
Advances and Quasi Cash transactions, finance charges, fees, and, other adjustments.
6.0: PAYMENTS: You promise to pay the Bank according to the terms of this Agreement the entire
amount owing hereunder. You agree to make all payments in U.S. Dollars drawn on funds on deposit in
the United States (however, the Bank may at its option choose to accept payments made in foreign
currency or made by drawing on funds on deposit outside the United States, in which case you agree to
pay all conversion fees and bank collection fees incurred by the Bank, which amounts will be treated as
purchase items). Do not send cash payments.
6.1: Payment Due Date. The payment due date on your Account will be the same date each month and
your payment will be due by 5:00 p.m. in the manner and location specified on your billing statement.
6.2: Amount of Minimum Payment. If the New Balance is less than $5, the minimum payment is the
full amount of the New Balance. The minimum payment due each month is 5% of the New Balance
which does not exceed your credit limit (rounded up to the nearest dollar), or $5 whichever is greater,
plus the entire portion of the New Balance in excess of your credit limit, plus any amount past due. You
shall make (and the Bank shall have received at the address designated on your monthly statement) on or
before 5:00 p.m. on the due date the minimum payment shown on your monthly statement (or, at your
option, any greater amount up to the Outstanding Balance). Receipt of your minimum payment at any
address other than that designated on your monthly statement may create a delay in posting the
minimum payment to your Card Account and may thereby result in a late fee and additional finance
charges. Making only the minimum payment will increase the amount of interest you pay and the
time it takes to repay your balance.
6.3: Application of Payments. The amount of payments credited to your Account during a billing
period will be applied first to unpaid finance charges, then to any miscellaneous fees, then to the balance
having the highest APR, and then to each successive balance bearing the next higher APR until the
payment is exhausted. Balances having the same APR will be paid beginning with the oldest balance
first. Payment for more than the minimum payment amount (but not more than the Outstanding Balance)
will be accepted as a single payment for that billing period; the amount in excess of the minimum
payment will not be applied toward future payments due.
6.4: Acceptance of Partial or Nonconforming Payments. The Bank may accept late payments, partial
payments or any payment marked with any kind of restrictive endorsement (such as “paid in full” or “in
settlement”) without giving effect to the restrictive endorsement and without losing, waiving, or
impairing any of the Bank's rights under this Agreement or under applicable law.
6.5: Delay of Available Credit: We credit payments to your account on the day we receive them
however, we reserve the right, based on risk, to delay the available credit resulting from those payments.
6.6: Prepayment. You may repay all or any portion of the Outstanding Balance at any time without
penalty.
7.0: DEFAULT: If the minimum payment is not received at the proper address on or before the
payment due date, or if you fail to honor any other obligation under this Agreement, or if you die, file for
bankruptcy, or become insolvent or generally unable to pay your debts, or if you have furnished false or
misleading information on the Card Application, or if you are in default under any other obligations you
may owe to the Bank, or if the Bank reasonably believes that you are unable or unwilling to honor all of
your obligations under this Agreement, the Bank may declare the Outstanding Balance immediately due
and payable, may close your Card Account, and recover the Card.
8.0: LEGAL ACTION AND COSTS: Without waiving the Dispute Resolution provisions of this
Agreement, the Bank may take legal action (including collection action) against you and you agree to
pay all collection costs whether or not awardable as court costs (including the cost of Bank staff) and
reasonable attorney’s fees (including those of salaried Bank employees). If the Bank sues to collect and
you win the lawsuit, the Bank will pay your court costs and reasonable attorney’s fees. Also, you agree
that regardless of where you reside, the Bank may initiate legal action against you in the State of
Washington and you hereby submit yourself to jurisdiction of the courts therein.
9.0: FINANCE CHARGES: All Cash Advances, Quasi Cash transactions and purchases are subject to
interest charges from the date they are added to your Account until paid. If you pay in full by the
payment due date (which is at least 25 days from the monthly statement closing date), you pay Cash
Advance and Quasi Cash transaction fees and interest charges only on the Cash Advances and Quasi
Cash transactions added during the billing cycle. The finance charge shown on your monthly statement
will be the total of Cash Advance and Quasi Cash transaction fees and interest charges. The following
finance charges will apply whether before or after default, judgment, or the closing of your Card
Account.
9.1: Interest Charges, Periodic Rate and ANNUAL PERCENTAGE RATE (APR): The amount of
interest charges will be derived by multiplying your average daily balances by a periodic rate. The

periodic rate for Visa Platinum is 1.17% (corresponding APR is 14.04%). The Bank reserves the right
to change the APR upon notification to you and after one year from account opening.
9.2: Average Daily Balance Method (including current transactions): We figure a portion of the
finance charge on your Account by applying the periodic rate to the “average daily balances” of your
Account (including current transactions) for purchases, Cash Advances and Quasi Cash transactions. To
get the “average daily balances” we take the beginning balances of your Account each day, add any new
purchases, advances or other charges, and subtract any payments or credits, and unpaid late fees or
finance charges. This gives us the daily balances. Then, we add up all the daily balances for each day in
the billing cycle and divide the total by the number of days in the billing cycle. This gives us the
“average daily balance” for purchases, Cash Advances and Quasi Cash transactions. If you pay all of the
new balance shown on your statement by the payment due date, we will exclude that balance and all new
charges to the account except Cash Advances and Quasi Cash transactions from the daily balances.
9.3: Balance Subject to Finance Charge: To calculate your annual percentage rate, we divide the
finance charge by the balance subject to finance charge and multiply by twelve (the number of months in
a year). The balance subject to finance charge is made up of your average daily balances plus your new
advances (we will not include the amount of new advances more than once in a balance).
9.4: Minimum Finance Charge. There is no minimum finance charge.
9.5: Military Lending Act (MLA). The Military Lending Act provides protections for members of the
Armed Forces and their dependents.
9.5.1: Statement of MAPR (Military Annual Percentage Rate). Federal law provides important
protections to members of the Armed Forces and their dependents relating to extensions of consumer
credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the
credit transaction or account: The costs associated with credit insurance premiums; fees for ancillary
products sold in connection with the credit transaction; any application fee charged (other than certain
application fees for specified credit transactions or accounts); and any participation fee charged (other
than certain participation fees for a credit card account).
9.5.2: Oral Disclosures. Before accepting this Agreement, in order to hear important disclosures and
payment information about this Agreement, you may contact us at 1-844-210-3601.
9.5.3: Applicability of Dispute Resolution Provision. The Jury Waiver, Class Action Waiver, and
Arbitration Agreement in the Dispute Resolution Provision set forth in this Agreement do not apply to
those covered by the Military Lending Act.
10.0: CASH ADVANCE AND QUASI CASH TRANSACTION FEE: Each new Cash Advance or
Quasi Cash transaction, will be assessed a one-time fee equal to the greater of 2% of the amount of the
transaction, but never less than $5.00; however this charge will not exceed $50.00. The transaction fee
shall be fully earned when assessed.
11.0: OTHER FEES AND CHARGES:
11.1: Annual Fee: A non-refundable $25.00 annual fee for each account you have with us will begin on
the month on which your account is opened and charged annually thereafter.
11.2: ScoreCard Rewards Annual Fee: A non-refundable $25.00 annual fee will begin on the month
on which your account is opened and charged annually thereafter.
11.3: Late Payment Fee: If the minimum payment shown on your monthly statement is not received at
the proper address by the payment due date, there will be a late fee of $25.00.
11.4: Returned Payment Fee: If any check or other payment on your Card Account is dishonored or
must be returned because it cannot be processed, there will be a returned payment fee of $35.00.
11.5: International Transaction Fee. 1% of the U.S. dollar amount of the transaction. If you incur a
charge in a foreign currency, the charge will be converted into a U.S. Dollar amount by Visa
International. Currently, the currency conversion rate used is either a wholesale market rate or a
government mandated rate in effect one day prior to the date the transaction is processed by Visa
International plus one percent (1%) of the U.S. dollar rate. The currency conversion rate in effect on the
processing date may differ from the rate in effect on the transaction date or the posting date. This charge
is in addition to the Bank’s usual ATM fee.
11.6: Expedited Card Delivery or Emergency Card Fee: If you request the Bank to provide
“expedited card delivery” (which requires the services of an outside delivery service provider), you
agree that we may charge a fee up to $60 for this service.
12.0: SECURITY INTEREST FOR SECURED ACCOUNTS. If you have a Secured Account, you
have given the Bank a security interest in a savings account at the Bank to secure payment of your Card
Account. If you withdraw your funds from the savings account, the Bank has the right to close your Card
Account.
13.0: JOINT ACCOUNT. If your Card Account is in the name of more than one person, each and every
such person shall be jointly and severally liable for the full Outstanding Balance, including without
limitation any amount in excess of your Credit Limit. In addition, except as otherwise required by
applicable law, you agree that all monthly statements and notices regarding your Card Account may be
sent to any one of you.
14.0: INTERPRETATION; EFFECT:
14.1: Duration. Except for your right to use the Card and to make charges to your Card Account (which
right expires when your Card Account is closed); all other provisions of the Card Agreement shall
remain in full force and effect until your Card Account is closed and your Outstanding Balance is paid in
full.
14.2: Headings. The headings used in this Agreement are for convenience only and shall have no
bearing on the interpretation of this Agreement.
14.3: Governing Law. THE CARD AGREEMENT SHALL BE GOVERNED BY AND
CONSTRUED IN ACCORDANCE WITH THE LAWS OF THE UNITED STATES AND OF
THE STATE OF WASHINGTON REGARDLESS OF WHERE YOU MAY RESIDE OR USE
YOUR CARD.
15.0: DISCLOSURES OF INFORMATION: You acknowledge and consent to the release of personal
data about you by the Bank to Visa U.S.A., its Members, or their respective contractors for the purpose
of providing emergency cash and/or emergency card replacement services.
16.0: RESTRICTIONS ON USE OF CARD ACCOUNT: Only the individual named on the Card is
permitted to use the Card for charges, identification, or any other reason.
16.1: No Illegal Purpose. The Card, Card Account or Credit Card Checks shall not be used for any
illegal purpose. You also agree not to use your Card, Card Account or Credit Card Checks to gamble on
the Internet or for any transaction that violates applicable law. We may block or refuse to approve any
transaction that we believe may violate this provision.
17.0: LIABILITY FOR OBLIGATIONS:
17.1: Your Liability. You shall be liable for the full amounts of your Outstanding Balance regardless of
the purpose whether for business purposes or for personal, family or household purposes of any of the
charges made with the Card(s) or Credit Card Checks. Your liability shall also include all charges
regardless of the purpose made by any person to whom you have given express or implied permission to
use the Card, Card Account or Credit Card Checks or has voluntarily provided the Card or Card number.
17.2: User’s Liability. In addition to and not in lieu of your liability as set forth above, each User shall
be jointly, and severally liable with you for all amounts resulting from: (a) all charges made by User for

personal, family, or household purposes; and (b) all charges made by any person to whom that User has
given express or implied permission to use the Card or Card Account or has voluntarily provided the
Card or the Card number, regardless of the purpose of any such change.
18.0: LIABILITY FOR UNAUTHORIZED USE: If your Card or Card Account number are lost or
stolen, or if you think that someone used or may use them without permission, you agree to notify the
Bank immediately by calling 206-292-4550 during bank business hours and 866-604-0381 otherwise.
You may need to provide the Bank with certain information in writing to help the Bank determine what
happened. You are not liable for loss, theft, or unauthorized use of your Card, Card Account, or Credit
Card Check if you notify the Bank of any fraudulent transactions.
18.1: Liability for Unauthorized ATM Transactions: You are not liable for unauthorized use of your
card for ATM transactions if you notify the Bank within 2 business days. In any case, your liability will
not exceed $50.
19.0: REFUSAL OF THE CARD: The Bank will not be responsible or liable in any manner for any of
the following or for any claim of whatever nature (including without limitation any claim for incidental
or consequential damages) arising from or related to any of the following: the refusal or delay of any
other financial institution, any merchant, or any person to honor the Card, your Card Account, or any
Credit Card Check; any goods or services obtained with the Card and charged to your Card Account
(except as and only to the extent provided in “Billing Rights Summary” notice at the end of this
Agreement); any unsuccessful attempt to obtain prior credit authorization for any transaction when the
authorization system is not working, or any unsuccessful attempt to use the Card in an ATM when the
ATM or ATM network is not working or is temporarily closed or out of order.
20.0: FINANCIAL AND CREDIT INFORMATION:
20.1: Financial Statements. The Bank may need updated financial information from you at some time
in the future. If the Bank asks, you agree to furnish a current financial statement or to update the Card
Application.
20.2: Credit Reports. You hereby authorize the Bank to make whatever credit inquiries or
investigations about you that the Bank deems appropriate and to disclose to others credit information
about your Card Account and your performance under this Agreement. The Bank may ask credit bureaus
for reports of your credit history; at your request, the Bank will tell you whether or not the Bank has
requested such reports and will tell you the names and addresses of the credit bureaus furnishing the
reports.
20.3: Negative Credit Reporting. You are hereby notified that we may report information about your
account to credit bureaus. Late payments, missed payments, or other defaults on your account may be
reflected in your credit report.
20.4: Notify us of inaccurate information we report to credit bureaus. Please notify us if we report
any inaccurate information about your account(s) to a credit bureau. Your written notice describing the
specific inaccuracy should be sent to us at the following address: The Commerce Bank of Washington,
601 Union Street, Suite 3600, Seattle, WA 98101.
21.0: CHANGE OF NAME OR ADDRESS: You agree to promptly notify the Bank in writing if you
change your name, home address, or mailing address.
22.0: TERMINATION: You may close your Card Account at any time by notifying the Bank in
writing. The Bank may close your Card Account at any time without cause and without notice except we
may have to give you notice if you are not in default. In the event of default (which includes missing any
payments or breaking any of your Agreements with us, failing to pay other charges when due, exceeding
the credit limit of the Account, the death, insolvency or bankruptcy of you or any joint cardholder, the
seizure of any of your assets or income, or that of a joint cardholder, and our good faith belief that the
prospect of payment is in jeopardy), we may without notice, terminate the Account, demand possession
of all Cards, and declare the entire balance due and payable. When your Card Account is closed
(whether by you or the Bank); your right to use the Card and to make charges to the Card Account will
be automatically revoked. Termination does not excuse your obligation to pay us.
23.0: BILLING RIGHTS SUMMARY: This notice contains important information about your rights
and the Bank's responsibilities under the Fair Credit Billing Act.
23.1: Notify Us in Case of Errors or Questions About Your Bill. If you think your bill is wrong, or if
you need more information about a transaction on your bill, write us in a separate letter at the address
indicated in the Billing Rights Summary on your Statement. Write us as soon as possible. We must hear
from you no later than 60 days after we sent you the first bill on which the error or problem appeared.
You can telephone us, but doing so will not preserve your rights. In your letter, include the following
information:
•
Your name and account number.
•
The date and dollar amount of the suspected error.
•
Describe the error, and explain if you can, why you believe there is an error. If you need more
information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from your savings or checking
account, you can stop the payment on any amount you think is wrong. To stop the payment your letter
must reach us three business days before the automatic payment is scheduled to occur.
23.2: Your Rights and Our Responsibilities After We Receive Your Written Notice. We must
acknowledge your letter within 30 days, unless we corrected the error by then. Within 90 days, we must
either correct the error or explain why we believe the bill was correct.
After we receive your letter, we cannot try to collect any amount you question, or report you as
delinquent. We can continue to bill you for the amount you question, including finance charges, and we
can apply any unpaid amount against your credit limit. You do not have to pay any questioned amount
while we are investigating, but you are still obligated to pay the parts of your bill that are not in question.
If we find that we made a mistake on your bill you will not have to pay any finance charges related to
any questioned amount. If we didn’t make a mistake, you may have to pay finance charges, and you will
have to make any missed payments on the questioned amount. In either case, we will send you a
statement of the amount you owe and the date that it is due.
If you fail to pay the amount that we think you owe, we may report you as delinquent. However, if our
explanation does not satisfy you and you write to us within ten (10) days telling us that you still refuse to
pay, we must tell anyone we report you to that you have a question about your bill. And, we must tell
you the name of anyone we reported you to. We must tell anyone we report you to that the matter has
been settled between us when it finally is. If we don’t follow these rules, we can’t collect the first $50 of
the questioned amount, even if your bill was correct.
23.3: Special Rule for Credit Card Purchases: If you have a problem with the quality of property or
services that you purchased with the Card and you have tried in good faith to correct the problem with
the merchant, you may have the right not to pay the remaining amount due on the property or services.
There are two limitations on this right:
(1) You must have made the purchase in your home state or, if not within your home state, within 100
miles of your current mailing address; and
(2) The purchase price must have been more than $50.
These limitations do not apply if the Bank owns or operates the merchant, or if the Bank mailed you the
advertisement for the property or services.
24.0: DISPUTE RESOLUTION PROVISION. This Dispute Resolution Provision contains a jury
waiver, a class action waiver, and an arbitration agreement (or judicial reference agreement, as
applicable), set out in four Sections. READ IT CAREFULLY. No portion of this Dispute Resolution

section shall be interpreted or applied in a manner prohibited by governing law, but all other portions
shall remain in effect. Without limitation, no portion of this Dispute Resolution section shall require
arbitration or other non-judicial procedure to resolve any controversy or settle any claim arising out of
any consumer credit transaction that is secured by a dwelling (including a home equity line of credit
secured by the consumer’s principal dwelling). The jury waiver, class action waiver, and arbitration
agreement in this Dispute Resolution provision do not apply to you if, as of the date of this
agreement, you are a member of the Armed Forces or a dependent of such member entitled to
protection under the Federal Military Lending Act.
SECTION 1: GENERAL PROVISIONS GOVERNING ALL DISPUTES:
24.1.1: PRIOR DISPUTE RESOLUTION AGREEMENTS SUPERSEDED. This Dispute
Resolution Provision shall supersede and replace any prior “Jury Waiver,” “Judicial Reference,”
“Class Action Waiver,” “Arbitration,” “Dispute Resolution,” or similar alternative dispute
agreement or provision between or among the parties.
24.1.2: “DISPUTE” DEFINED. As used herein, the word “Dispute” means, without limitation, any
claim by either party against the other party related to this Agreement, your Card or Account. “Dispute”
includes, but is not limited to, matters arising from or relating to a deposit account, an application for or
denial of credit, warranties and representations made by a party, the adequacy of a party’s disclosures,
enforcement of any and all of the obligations a party hereto may have to another party, compliance with
applicable laws and/or regulations, performance or services provided under any agreement by a party,
including without limitation disputes based on or arising from any alleged tort or matters involving the
employees, officers, agents, affiliates, or assigns of a party hereto.
If a third party is a party to a Dispute (such as a credit reporting agency, merchant accepting a credit
card, junior lienholder or title company), each party hereto agrees to consent to including that third party
in any arbitration or judicial reference proceeding for resolving the Dispute with that third party.
24.1.3: JURY WAIVER. Each party waives its, his or her respective rights to a trial before a jury
in connection with any Dispute. All Disputes shall be decided by a judge sitting without a jury, unless
submitted to binding arbitration pursuant to Section 2 or judicial reference pursuant to Section 3.
This Agreement includes an arbitration agreement, which will have a substantial effect on your
rights in the event of a dispute with us. For example, if we elect to require you to arbitrate any
claim, you will not have the right to a jury trial or the right to participate in a class action in court
or in arbitration. However, the arbitration agreement does not apply if, as of the date of this
agreement, you are a member of the armed forces or a dependent of such member covered by the
Federal Military Lending Act. Please see the section of this agreement labeled “Military Lending
Act.”
24.1.4. AGREEMENT FOR BINDING ARBITRATION OR JUDICIAL REFERENCE (A) IF A
CONSUMER PARTY REQUESTS, OR (B) IF THE JURY TRIAL WAIVER IS NOT
ENFORCED. A party who (in context of the Dispute) is a consumer may timely elect to require that
the Dispute be submitted as applicable to binding arbitration under Section 2 hereof or binding judicial
reference under Section 3 hereof. In addition, if this Agreement’s jury waiver is unenforceable by law, or
otherwise not enforced by a court exercising jurisdiction over the Dispute, then all parties hereby agree
that the Dispute shall be timely submitted as applicable to binding arbitration under Section 2 or binding
judicial reference under Section 3. BY AGREEING TO RESOLVE SPECIFIED FUTURE
DISPUTES IN ARBITRATION OR BY JUDICIAL REFERENCE, THE PARTIES ARE
WAIVING THEIR RIGHT TO LITIGATE THOSE DISPUTES IN COURT.
In any lawsuit regarding a Dispute (a “Lawsuit”), following the service of a complaint, third-party
complaint, cross-claim or counterclaim or any answer thereto, any amendment to any of the above, or a
ruling or entry of an order that has the effect of invalidating this Agreement’s jury trial waiver (any of
the foregoing, an “ADR Event”), then at any time prior to trial of the Dispute, but not later than 30
days after the ADR Event, any party shall be entitled to move the court for an order (on the grounds set
forth in the preceding paragraph) compelling arbitration under Section 2 or judicial reference under
Section 3, as applicable, and staying or dismissing the Lawsuit pending such arbitration or judicial
reference (an “ADR Order”). A party that commenced or participated in the Lawsuit may nevertheless
demand arbitration or judicial reference of a Dispute after an ADR Event. Commencement or
participation in the Lawsuit shall not operate as a waiver of the right to compel arbitration or judicial
reference. After entry of an ADR Order, the non-moving party shall commence the arbitration or judicial
reference. The moving party shall, at its discretion, also be entitled to commence arbitration or judicial
reference but is under no obligation to do so, and the moving party shall not in any way be adversely
prejudiced by electing not to commence arbitration or judicial references.
24.1.5: CLASS ACTION WAIVER. If permitted by applicable law, each party waives the right to
litigate any Dispute as a class action (either as a member of a class or as a representative) or to act
as a private attorney general. The waiver in this paragraph applies whether the proceeding is in a
court, in an arbitration, or in a judicial reference proceeding.
24.1.6: SURVIVAL: This Dispute Resolution Provision shall survive any termination, amendment, or
expiration of this Agreement, or any other relationship between the parties.
SECTION 2: TERMS GOVERNING THOSE DISPUTES SUBMITTED TO ARBITRATION.
This Section 2 governs Disputes that are submitted for binding arbitration under subsection 24.1.4. This
Section 2 shall not apply to any Dispute that is pending in a state or federal court located in the State of
California, except to the extent such Dispute may also be pending in a state or federal court located
outside of California. An arbitrator shall have no authority to determine the validity, enforceability,
meaning and scope of this Dispute Resolution Provision, or (ii) class action claims brought by either
party as a class representative on behalf of others, or by a class representative on either party’s behalf as
a class member, which matters may be determined only by a court without a jury.
Arbitration under this provision shall be conducted before a single arbitrator through either the National
Arbitration Forum (“NAF”) or Judicial Arbitration and Mediation Service, Inc. (JAMS), as selected by
the initiating party, in accordance with the rules of NAF or JAMS (the “Administrator”). However, if the
parties agree, a licensed attorney may be selected by the parties to conduct the arbitration without an
Administrator. If NAF and JAMS both decline to administer arbitration of the Dispute, and if the parties
are unable to mutually agree upon a licensed attorney to act as arbitrator without an Administrator, then
either party may file a Lawsuit and move for an ADR Order. The arbitrator, howsoever appointed, shall
have expertise in the subject matter of the Dispute. Venue for the arbitration proceeding shall be as
stated elsewhere in this Agreement with respect to any judicial proceedings between the parties. Absent
such a provision, the arbitration shall be conducted at a location determined by mutual agreement of the
parties or by the Administrator if no agreement can be reached. The arbitrator shall apply the law of the
state specified in the agreement giving rise to the Dispute.
In any arbitration commenced by a consumer regarding a consumer Dispute, Lender or Bank shall pay
one half of the Administrator's initial filing fee, up to $500. If Lender or Bank commences arbitration or
is the moving party obtaining an ADR Order, Lender or Bank shall pay all Administrator and arbitrator
fees, regardless of whether or not the consumer is the prevailing party in such arbitration, unless such

Dispute involves a claim for damages by a consumer and is found by the arbitrator to be frivolous. For
this paragraph, “consumer Dispute” shall mean a Dispute involving credit or services provided by
Lender or Bank, primarily for personal, family or household purposes, in which the claim for damages is
less than $75,000.
The Administrator and the arbitrator shall have the authority, to the extent practicable, to take any
reasonable action to require the arbitration proceeding to be completed within 180 days of commencing
the arbitration. The arbitrator: (i) will render a decision and any award applying applicable law; (ii) will
hear and rule on appropriate dispositive motions for judgment on the pleadings, for failure to state a
claim, or for full or partial summary judgment; (iii) will give effect to any statutory or contractual
limitations period (e.g., any statute of limitations) in determining any Dispute or defense; (iv) shall have
the authority to impose sanctions on any party that fails to comply with time periods imposed by the
Administrator or the arbitrator, including, without limitation, the sanction of entering a final award
against the party that fails to comply; (v) shall have authority to award costs and fees (including
attorneys' fees and costs, arbitration administration fees and costs, and arbitrator(s)' fees) to the extent
permitted by law; (vi) shall recognize and honor claims of privilege recognized at law; and (vii) with
regard to motions and the arbitration hearing, shall apply the Federal Rules of Evidence. The doctrines
of compulsory counterclaim, res judicata, and collateral estoppel shall apply to any arbitration
proceeding hereunder.
Commencement of an arbitration by any party shall not prevent any party from at any time (i) seeking
and obtaining from a court of competent jurisdiction (notwithstanding ongoing arbitration) provisional
or ancillary remedies including but not limited to injunctive relief, temporary restraining orders, property
preservation orders, foreclosure, sequestration, eviction, attachment, replevin, garnishment, and/or the
appointment of a receiver; or (ii) availing itself of any self-help remedies such as setoff and repossession
rights or non-judicial foreclosure of collateral. The exercise of such rights shall not constitute a waiver of
the right to submit any Dispute to arbitration.
Judgment upon an arbitration award may be entered in any court having jurisdiction except that, if the
arbitration award exceeds $200,000, any party shall be entitled to a de novo appeal of the award before a
panel of three arbitrators. To allow for such appeal, if the award (including Administrator, arbitrator, and
attorney’s fees and costs) exceeds $200,000, the arbitrator will issue a written, reasoned decision
supporting the award, including a statement of authority and its application to the Dispute. A request for
de novo appeal must be filed with the arbitrator within 30 days following the date of the arbitration
award; if such a request is not made within that time period, the arbitration award shall become final and
binding. On appeal, the arbitrators shall review the award de novo, meaning that they shall reach their
own findings of fact and conclusions of law rather than deferring in any manner to the original arbitrator.
Appeal of an arbitration award shall be pursuant to the rules of the Administrator; if the Administrator
has no such rules, then the JAMS arbitration appellate rules shall apply.
To request information on how to submit an arbitration claim, or to request a copy of an Administrator’s
rules or fee schedule, please contact the Administrators as follows: JAMS: 1920 Main St., Suite 300,
Irvine, CA 92614, Phone: (949) 224-1810, Fax: (949) 224-1818, E-mail: info@jamsadr.com, Website:
www.jamsadr.com; NAF: National Arbitration Forum, P.O. Box 50191, Minneapolis, MN 55405-0191,
Phone (800) 474-2371, E-Mail: info@adrforum.com, Website: www.adrforum.com.
Arbitration under this provision concerns a transaction involving interstate commerce and shall be
governed by the Federal Arbitration Act, 9 U.S.C. § 1 et seq. If the terms of this Section 2 vary from the
Administrator’s rules, this Section 2 shall control.
SECTION 3: TERMS GOVERNING THOSE DISPUTES SUBMITTED TO JUDICIAL
REFERENCE. This Section 3 governs Disputes that are submitted under subsection 24.1.4 for judicial
reference in accordance with California Code of Civil Procedure, Section 638, et seq. This Section 3
may be invoked only with regard to Disputes filed in state or federal courts located in the State of
California. In no event shall this Section 3 diminish the force or effect of any venue selection or
jurisdiction provision in this Agreement or any Related Document. Nothing herein shall preclude a party
from moving (prior to the court ordering judicial reference) to dismiss, stay or transfer the suit to a
forum outside California on grounds that California is an improper, inconvenient or less suitable venue.
If such motion is granted, this Section 3 shall not apply to any proceedings in the new forum.
The referee shall be a retired judge, agreed upon by the parties, from either the American Arbitration
Association (AAA) or Judicial Arbitration and Mediation Service, Inc. (JAMS). If the parties cannot
agree on the referee, the party who initially selected the reference procedure shall request a panel of ten
retired judges from either AAA or JAMS, and the court shall select the referee from that panel. If AAA
and JAMS are unavailable to provide this service, the court may select a referee by such other
procedures as are used by that court. The referee shall be appointed to sit with all of the powers provided
by law, including the power to hear and determine any or all of the issues in the proceeding, whether of
fact or of law, and to report a statement of decision. Only for this Section 3, “Dispute” includes matters
regarding the validity, enforceability, meaning, or scope of this Section, and class action claims brought
by either party as a class representative on behalf of others and claims by a class representative on either
party’s behalf as a class member. The parties agree that time is of the essence in conducting the judicial
reference proceeding set forth herein. Except as otherwise provided in this paragraph, the costs of the
judicial reference proceeding, including the fee for the court reporter, shall be borne equally by the
parties as the costs are incurred, unless otherwise awarded by the referee. If Lender or Bank commences
a judicial reference proceeding regarding a consumer Dispute, Lender or Bank shall pay all referee fees,
regardless of whether or not the consumer is the prevailing party in such proceeding, unless such Dispute
involves a claim for damages by a consumer and is found by the referee to be frivolous. For purposes of
this paragraph, “consumer Dispute” shall mean a Dispute involving credit or services provided by
Lender or Bank, primarily for personal, family or household purposes, in which the claim for damages is
less than $75,000.
The referee shall hear all pre-trial and post-trial matters (including without limitation requests for
equitable relief), prepare a statement of decision with written findings of fact and conclusions of law and
apportion costs as appropriate. The referee shall be empowered to enter equitable relief as well as legal
relief, provide all temporary or provisional remedies, enter equitable orders that are binding on the
parties and rule on any motion that would be authorized in a trial, including without limitation motions
for summary adjudication. Judgment upon the award shall be entered in the court in which such
proceeding was commenced and all parties shall have full rights of appeal. This provision will not be
deemed to limit or constrain Lender’s or Bank’s right of offset, to obtain provisional or ancillary
remedies, to interplead funds in the event of a dispute, to exercise any security interest or lien Bank or
Lender may hold in property, or to comply with legal process involving accounts or other property held
by Bank or Lender.
SECTION 4: RELIANCE. Each party (i) certifies that no one has represented to such party that the
other party would not seek to enforce a jury waiver, class action waiver, arbitration provision or judicial
reference provision in the event of suit, and (ii) acknowledges that it and the other party have been
induced to enter into this Agreement by, among other things, material reliance upon the mutual waivers,
agreements, and certifications in the four Sections of this DISPUTE RESOLUTION PROVISION.

Zions Bancorporation, N.A. Member FDIC, Equal Housing Lender Last Review Date 20181001

